2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs E-Mail Address:
& contact(@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-67
UNITED STATES OF AMERICA,
Petitioner,

v.
EVELYN SINENENG-SMITH,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE CITY AND COUNTY OF SAN
FRANCISCO, CALIFORNIA; CITY OF BOULDER, COLORADO; CITY OF CHICAGO, ILLINOIS; COUNTY OF EL
PASO, TEXAS; AND 29 CITIES, COUNTIES, AND MUNICIPAL ORGANIZATIONS IN SUPPORT OF RESPONDENT
in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
DENNIS J. HERRERA
San Francisco City Attorney
AILEEN M. MCGRATH
Co-Chief of Appellate Litigation
MOLLY ALARCON
ERIN KUKA
Counsel of Record
Deputy City Attorneys
CITY ATTORNEY'S OFFICE
City Hall Room 234
One Dr. Carlton B. Goodlett PI.
San Francisco, CA 94102
Telephone: (415) 554-4229
erin. kuka@sfeityatty.org

Attorneys for Amici Curiae
City and County of San Francisco

Subscribed and sworn to before me this 22nd day of January, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska . Le Onda .
My Commission Expires Nov 24, 2020 :

Notary Public Affiant 39057

 

 

 
Service List

Attorneys for Petitioner United States

Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ gov

Attorneys for Respondent Evelyn Sineneng-Smith

Mark Christopher Fleming

Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street

Boston, MA 02109

(617) 526-6000
mark.fleming@wilmerhale.com
